U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                       CENSUS BUREAU

 Preparing for Census 2010: Follow-up
  Review of the Workers’ Compensation
 Program at the Census Bureau Reveals
    Limited Efforts to Address Previous
                OIG Recommendations

                              Final Inspection Report
                       No. IPE-18592/September 2007




            PUBLIC RELEASE




               Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                 Final Report IPE-18592
Office of Inspector General                                                         September 2007

1990 and 2000 decennial censuses. Further, we found that regional and local office staff had
received little, if any, targeted training or guidance on managing workers’ compensation for
the 2008 dress rehearsal. Dress rehearsal operations began in Spring 2007 and will continue
through much of 2008. It is important that Census managers and the Department work together
to develop a comprehensive workers’ compensation strategy that appropriately addresses the
bureau’s temporary workforce and identifies suitable opportunities to return injured employees
to work during both the dress rehearsal and 2010 decennial operations.

The Census Bureau did not agree with several of the findings in our draft report, but we are
pleased that it has concurred with all four of our recommendations to strengthen management of
its workers’ compensation program and help reduce the costs of the 2008 dress rehearsal and the
2010 Census. The bureau indicated that it had already completed some actions and was taking
additional steps to address the remaining concerns outlined in the report. We acknowledge these
recent efforts and the bureau’s ongoing dialogue with the Department, and have updated other
information in our report based on the bureau’s response.

Commerce’s Chief Financial Officer and Assistant Secretary for Administration concurred with
our recommendation that the Department work with Census to help reduce costs related to the
decennial census by strengthening the bureau’s management of its workers’ compensation
program. His response to our draft report indicates that the Office of Human Resources
Management’s (OHRM’s) Office of Occupational Safety and Health continues to take additional
actions to address this recommendation and those from our March 2006 report.


                                      INTRODUCTION

The Federal Employees Compensation Act (FECA) provides compensation benefits to civilian
federal employees due to personal injury, illness, or disease sustained while in performance of
official duties. It provides compensation for lost wages, monetary awards for bodily
impairment or disfigurement, medical care, and vocational rehabilitation until the employee
can return to work in either his/her original position or a suitable alternative position. FECA
benefits are available to permanent and temporary employees as well as to survivors.

The Department shares responsibility for administering the FECA program with the Department
of Labor’s Office of Workers’ Compensation Programs (OWCP). DOL has sole responsibility
for deciding whether to allow or deny claims, and it administers FECA benefits for all
Department of Commerce employees. Commerce is responsible for providing pertinent
information on which DOL bases its decisions. Since 1994 Commerce has had a centralized
FECA program administered by OHRM. Under this arrangement, the Department handles FECA
claims for all its bureaus except the United States Patent and Trademark Office. However,
Commerce bureaus and supervisors also have FECA responsibilities, including supporting
claimants, reviewing DOL’s chargeback reports, and helping to return claimants to work when
they are able. FECA costs are borne by the Department of Commerce—not DOL.

OIG issued a comprehensive report on the Department’s workers’ compensation program in
March 2006. During that review, we found the Census Bureau’s FECA costs totaled



                                              2
U.S. Department of Commerce                                                   Final Report IPE-18592
Office of Inspector General                                                           September 2007

approximately $5.59 million (out of a departmental total of almost $14.5 million) for the period
of July 1, 2004, to June 30, 2005. The bureau’s FECA costs were much higher during the
conduct of the 2000 decennial census. The bureau paid almost $14.2 million in FECA benefits
for the period of July 1, 2000, to June 30, 2001. The unique nature of intermittent work at Census
complicates administration of its FECA program. While temporary Census workers may be
Commerce employees for only a limited time, they are eligible for workers’ compensation
benefits if injured while working for the bureau. Once these employees have recovered or are
ready to return to work, their temporary appointments should not preclude them from returning
to work in a short-term position. However, if such employees are not offered a job, they can
remain on Census’s FECA rolls indefinitely, and over the course of a claimant’s lifetime, he or
she can be a considerable expense to the Department and the bureau. In fact, our March 2006
review of Census’s FECA rolls identified 44 active claims from the 1990 decennial and 183 from
the 2000 decennial. Census officials said it was difficult to find new or suitable work
opportunities for these individuals because its offices for the 1990 and 2000 decennials had
closed by the time these employees were ready to return to work. Despite Census’s relatively
unique situation with a temporary workforce and short-term work availability, the bureau should
consider its long-term FECA costs and take appropriate action to minimize those costs relative to
the overall expenditures for administering the decennial Census.

This follow-up review of the Census workers’ compensation program was focused on assessing
the bureau’s and Department’s progress in (1) implementing our 2006 recommendations
regarding Census’s FECA program, and (2) identifying ways that the bureau can better manage
the program, contain FECA costs for the 2008 dress rehearsal and 2010 decennial operations,
return current claimants to work, whenever feasible, and help prevent unnecessary FECA costs
by undertaking effective training programs and other management controls and oversight.

We conducted our fieldwork from March 2007 through June 2007. We held discussions with
Census’s Chief Financial Officer, its Director of Human Resources, safety office staff, decennial
and field operations management, and Census’s Seattle and Charlotte regional office staff
overseeing the 2008 dress rehearsal, as well as local Census office staff at the two dress rehearsal
sites in Stockton, California, and Fayetteville, North Carolina. On May 23, 2007, we met with
Census’s Chief Financial Officer, its Director of Human Resources, and decennial and field
operations senior managers to discuss our findings and recommendations. We also discussed our
findings and recommendations with the Department’s Deputy Director of Human Resources
Management and his staff on July 26, 2007.




                                               3
U.S. Department of Commerce                                                      Final Report IPE-18592
Office of Inspector General                                                              September 2007

                           OBSERVATIONS AND CONCLUSIONS

Census Has Not Fully Implemented Its August 2006 Action Plan. In its August 2006 action
plan, Census outlined steps it would take to implement the recommendations made to the bureau
in the March 2006 OIG report on workers’ compensation. However, during this follow-up
review, we found that Census had implemented few of our recommendations and had not taken
most of the steps outlined in its action plan.

OIG recommended Census develop a comprehensive FECA program for the 2010 decennial, that
includes (1) guidance for supervisors/managers on how to handle FECA claims immediately
upon initiation through case management; (2) a return-to-work strategy, complete with modified
temporary positions to quickly bring injured enumerators or others back to work if they are
injured during the decennial; and (3) identification of current claimants who could be offered a
job in the 2010 decennial preparations and/or operations and brought back to work. In addition,
we recommended that Census review all of its FECA cases in conjunction with OHRM’s Office
of Occupational Safety and Health (OOSH) and identify those employees able to return to work,
whether in a permanent or temporary capacity, and take necessary actions to bring those
employees back to work as soon as possible.

In its August 2006 action plan, Census reported it would take the following steps to address our
recommendations:
 Actions to Be Taken By October 2006 (Target Implementation Date)
 • Develop workers’ compensation training in consultation with OHRM’s Office of Occupational Safety and
   Health (OOSH);
 • Convene a meeting between the Census Safety Office and the field decennial and administrative staff to
   develop a comprehensive return-to-work strategy for injured 2010 decennial employees;
 • Cooperate with OOSH to identify current FECA claimants who could be offered jobs in the 2010 census
   or preparatory activities; and
 • Provide augmented workers’ compensation guidance in decennial training and manuals.

 Actions to Be Taken By January 2007 (Target Implementation Date)
 • Strategize a means to rehire FECA claimants within existing appointing authorities;
 • Acquire contract staff to support the expanded workload;
 • Review FECA cases and augmented re-employment activities.

Census managers advised us during our follow-up review that due to multiple factors, including
relocating staff to Census’s new headquarters facility, the bureau had not implemented many of
its planned initiatives for managing workers’ compensation and bringing 1990 and 2000
decennial claimants back to work. For example, they reported that the bureau has not yet
incorporated comprehensive guidance on workers’ compensation and returning to work into the
decennial manuals. They said that this guidance will be developed and incorporated into the
manuals on an incremental basis targeted to the requirements of specific operations, since many
dress rehearsal and decennial operations have customized training and guidance materials.




                                                 4
U.S. Department of Commerce                                                  Final Report IPE-18592
Office of Inspector General                                                          September 2007

In addition, during our review and at our exit conference, some Census managers questioned
whether it is actually time efficient to train and retrain supervisors on workers’ compensation.
They said they did not want to put the mission of the Census Bureau (providing an accurate and
timely count of the population) in jeopardy by requiring regional offices to have a more hands-on
role in managing workers’ compensation. Following issuance of our draft report and as a result
of further discussions among the Census field operations, decennial management, and human
resource managers, the bureau decided, as noted in its response to our draft report, that it would
implement a regionally-based return-to-work program during the 2010 decennial. However,
Census must still determine the appropriate roles and responsibilities of regional and field office
staff when developing workers’ compensation guidance and training. For example, should field
office supervisors routinely follow-up with injured claimants to verify their return-to-work
status? Would this role be more effectively performed at the regional office and/or headquarters
level? As of May 23, 2007, when we met with senior bureau officials, these roles and
responsibilities were not yet developed.

Census headquarters officials also told us at the start of our follow-up review that they may have
been overzealous in estimating how quickly they could develop relationships and coordination
between Census, OHRM, and OWCP and prepare a viable workers’ compensation strategy, as
promised in its August 2006 action plan. However, by the end of our fieldwork, Census
managers stated that they were optimistic about future collaboration. As a first step in the
coordination process, Census HR officials attended a May 22, 2007, training session organized
by OHRM in which Labor’s OWCP discussed return-to-work strategies.

Since issuance of our draft report in July 2007, the Census Bureau has reportedly reached
internal agreement on an integrated approach for a more robust workers’ compensation program
strategy. The bureau stated that it continues to work with OHRM on finalizing the specific
approach and determining the proper resource allocations and contract vehicle options to best
meet the needs of the program.



Census’s Response to OIG Draft Report and OIG Comments

Census disagreed with our statement that its coordination with the Department’s OHRM only
began in earnest in March 2007 and that it had not taken the steps outlined in its August 2006
action plan. The bureau stated that it has been working with the Department since May 2006 to
obtain access to the DOL and DOC workers’ compensation file and tracking systems and
chargeback information for Census Bureau cases. We acknowledge these preliminary efforts.
However, based on our discussions with Census and Department personnel during our review,
the bureau had not resolved its approach internally, let alone begun to work with OHRM to
develop a strategy for effectively managing its workers’ compensation program and designing a
return-to-work strategy before early Spring 2007. We have acknowledged above several steps
that the bureau has reported that it has taken since issuance of our draft report.




                                               5
U.S. Department of Commerce                                                          Final Report IPE-18592
Office of Inspector General                                                                  September 2007

Census Needs to Augment Its Workers’ Compensation Training and Guidance in the Training
Manuals to Be Used for the Dress Rehearsal and the Decennial. As previously noted, our March
2006 report recommended that Census develop guidance for supervisors/managers on how to
handle FECA claims immediately upon initiation through case management. In response to this
recommendation, Census reported in its action plan that it had set an October 2006 target
implementation date for developing its own workers’ compensation training in consultation with
OOSH. However, during our follow-up review, we found the bureau was still developing its
workers’ compensation training program and had not fully addressed our recommendation. The
bureau provided us with copies of OOSH training materials and said it would use them and other
material as it continues to revise its own headquarters, field and decennial guidance for
management of workers’ compensation.

The bureau also reported during the follow-up review that it had provided all newly-appointed
supervisors with training on “Safety Responsibilities for Managers and Supervisors.” This
training was part of a mandatory human resources management course as well as a video
teleconference provided to regional office supervisors and managers in October 2006. Our
March 2006 report acknowledged the bureau’s efforts to provide safety training to prevent or
minimize FECA claims. Additionally, during this follow-up review, one of Census’s regional
office employees reported that Census occasionally holds conferences for administrative
specialists from regional offices where they learn, among other things, the function of Labor’s
OWCP, which forms to use when an employee sustains a work-related injury, and how to apply
new Occupational Safety and Health Administration laws and regulations.

Despite these efforts, we found there is still a need for augmented workers’ compensation
training and better guidance on managing the program. Our interviews with 14 employees who
are responsible for administering or supervising the workers’ compensation programs in the
Seattle and Charlotte regional offices and the Stockton and Fayetteville local Census offices
revealed that most of them did not receive workers’ compensation training from Census or learn
how to handle FECA claims on the job. Although newly-appointed Census supervisors receive
safety training, some regional and local Census supervisors we spoke with told us that the
training they received did not include detailed instructions for managing workers’ compensation
claims, such as guidance on how to identify suitable employment when the claimant is able to
return to work. One manager noted a need for a step-by-step timeline or quick reference guide
on workers’ compensation, citing the following example: 4 days into the address canvassing
dress rehearsal exercise, one local Census office received two workers’ compensation claims;
supervisors had to stop and shuffle through the office manuals to determine how to submit a
claim in the midst of managing other critical activities, whereas a quick reference guide might
have been more user friendly.

Our March 2006 report also recommended that the Department educate its safety specialists,
supervisors, other employees, and its workers’ compensation contractor 2 on the importance of
adequately identifying third parties responsible for claimant injuries at the time the claim is filed.
In the report, we noted that OOSH had not emphasized the need for claimants or supervisors to

2
 Commerce has a workers’ compensation contractor that handles the administration and follow-up on the
Department’s short-term workers’ compensation claims, except for those of USPTO. Long-term claims are
managed by OHRM.


                                                    6
U.S. Department of Commerce                                                             Final Report IPE-18592
Office of Inspector General                                                                     September 2007

(1) identify third-party involvement in accidents or injuries on FECA claim forms and (2) follow
up with the Labor Department’s OWCP on third-party claims. In response to our
recommendation, OHRM stated “third-party cases are covered in basic supervisor training
programs and supervisors are instructed to pay special attention to potential third-party cases,
including informing OOSH and/or [the Department’s contractor].” However, during our follow-
up review, managers and staff in the regional and local Census offices reported that they are
either not familiar with reporting requirements for third-party claims related to workers’
compensation or did not receive any training on the subject. If such claims are identified,
accepted by OWCP, and successfully         Figure 1: Third Party Definition and Examples
pursued, the federal government can
recover damages and lost wages from        Third Party Claim: If a person or company is not working as a
third parties responsible for the          federal employee or operating as a federal agency, they are
injuries or their insurance companies,     considered third parties. If third parties cause injuries to a federal
                                           employee while in work status, they are liable for the injuries they
ultimately saving the Census Bureau        caused, even if they are only responsible for part of the
money.                                     employee’s injuries.

In its August 2006 action plan, Census Common examples of third party injuries include:
reported that it would include                 Car accidents – third parties involved in car accidents with
                                                federal employees should pay for the injuries they cause.
additional workers’ compensation
guidance in decennial manuals to               Trips and falls on private property – property owners should
address our recommendation that                 pay if a federal employee is injured because of the condition
Census develop guidance for its                 of the property.
supervisors and managers on how to
handle FECA claims. In addition, the           Broken chairs and other equipment – manufacturers of
                                                equipment used by federal employees should pay for injuries
Department reported that by                     that occur when the equipment fails.
December 31, 2006, Census was to
introduce an updated version of the         Source: 20 CFR 10.705 and Department of Labor’s CA-1 form
supervisors’ handbook “written
specifically for the 2010 decennial with specific standards and practices.” However, that has not
happened. Instead, for the dress rehearsal, the regional offices are using the Regional Census
Center Administrative Manual (DX-520), dated September 1, 2006. The “Workers’
Compensation Program” chapter in the manual explains which forms the supervisor needs to fill
out for different types of injuries and contains record keeping and file management information.
Additionally, the manual states that supervisors should prepare a report each quarter, updating
the field division on employees who return to duty. However, the manual does not provide
adequate guidance for supervisors on following up with injured employees. It merely instructs
managers and supervisors to ensure that employees “return to work as soon as possible,” and
states that “every effort should be made to return an employee to work, even if it is in a light
duty status or if the employee’s term of appointment is nearing its end.” The manual further
directs that supervisors should immediately consult with the administrative specialist upon
learning that an injured employee is available to return to work on either full or light duty. The
manual does not provide any additional guidance on a return-to-work strategy, including
instructions on how to identify modified temporary positions or when to follow up with an
injured employee.




                                                     7
U.S. Department of Commerce                                                          Final Report IPE-18592
Office of Inspector General                                                                  September 2007

We reviewed copies of the Regional Census Center Administrative Manual (DX-520) and four
2008 dress rehearsal employee handbooks that Census headquarters provided us. We also
reviewed (DX-1024), the supervisor manual used for group quarters’ validation. (See Table 1.)

Table 1. A Sample of Census Bureau Employee Manuals Covering FECA
Manual No.                           Name                                  Applicable Chapter
                       General Administrative Manuals for the Decennial Operations
DX – 501        Local Census Office Administrative Manual      Chapter 15: Safety
                Regional Census Center Administrative Manual Chapter 11: Workers’ Compensation Program
DX – 520
                                                               Chapter 10: Safety, Accidents, and Injuries
                          Specific Employee Manuals for the Decennial Operations
                Census Employee Handbook for Enumerators,      Chapter 5: Personal Safety and Security
DX – 590        Recruiting Assistants, and Crew Leader
                Assistants – 2008 Census Dress Rehearsal
                Census Employee Handbook for Crew Leaders Chapter 5: Personal Safety
DX – 591        and Field Operations Supervisors – 2008
                Census Dress Rehearsal
                Census Employee Handbook for Office Clerks     Chapter 5: Personal Safety
DX – 592
                – 2008 Census Dress Rehearsal
                Census Employee Handbook for Office            Chapter 5: Personal Safety
                Operations Supervisors for Recruiting, Field
DX – 593
                Operations, and Administration – 2008 Census
                Dress Rehearsal
                Group Quarters Validation, Group Quarters      Chapter 1: Introduction (Safety)
DX – 1024       Supervisor Manual – 2008 Census Dress
                Rehearsal
Source: Census Bureau

While the Local Census Office Administrative Manual (DX-501) instructs employees to notify
their supervisor when the physician releases the employee for limited or light duty activities, we
found none of the other manuals we reviewed included this guidance. According to Census, DX-
520 is used to produce manuals specific to each decennial operation. However, Census did not
incorporate the updated information on returning to work developed for the DX-501 or DX-520
manual into the DX-590, DX-591, DX-592, DX-593 or DX-1024 supervisor and administrative
staff manuals for the dress rehearsal. After our inquiries, Census’s human resources division
alerted decennial administrative staff to the fact that none of the DX-520 workers’ compensation
guidance was incorporated into the dress rehearsal manuals for crew leaders and field operations
supervisors and staff and requested that it be done. Despite these revisions, the current DX-501
and DX-520 guidance on returning employees to work still does not meet the intent of our
original recommendation.

It is essential that Census provide workers’ compensation training and guidance to
supervisors/managers and administrative staff responsible for these activities. Such training and
guidance on handling and preventing unnecessary or excessive FECA claims should cover third-
party liability, return-to-work strategies, and management/placement of employees. During
dress rehearsal and decennial preparations, it is important for Census staff to understand their
respective roles in managing claims beyond the initial filing, such as following up with injured
employees and finding suitable employment for temporary workers.



                                                   8
U.S. Department of Commerce                                                 Final Report IPE-18592
Office of Inspector General                                                         September 2007




Census’s Response to OIG Draft Report and OIG Comments

While Census concurred with our recommendation, the bureau disagreed with our conclusion
that it has not developed adequate workers’ compensation training or included adequate guidance
in the training manuals to be used for the 2008 dress rehearsal and the 2010 decennial census.
The bureau stated that due to the temporary nature of the decennial census and the high turnover
among first- and second-level supervisors, it has currently assigned most duties for managing
workers’ compensation to the regional and headquarters offices. Census indicated that chapter
10 in the Regional Census Center Administrative Manual (DX-520) provides detailed
instructions for the regional Census center administrative specialist to provide prompt
notification of work-related injury to the headquarters Decennial Applicant, Personnel and
Payroll System (DAPPS), and safety offices. However, this primary administrative manual (DX-
520) only provides instructions on notification procedures for the regional Census center
administrative specialist and does not provide guidance to other members of the bureau’s staff
that also have FECA responsibilities.

The bureau also stated that once its return-to-work plan is finalized, it will complete the
development and implementation of new decennial training and administrative manuals in
advance of Census 2010 operations. While Census noted that it plans to maintain the primary
responsibility for managing workers’ compensation in the regional and headquarters offices, it is
still important that first- and second-level supervisors in the field understand their FECA roles,
the employee’s role, and the importance of containing FECA costs. All Census employees with
FECA responsibilities—whether employed at the headquarters, regional, or field level—should
be provided with training and training manuals that effectively communicate the elements of
FECA, their role in the bureau’s new workers’ compensation program, and the responsibilities
that come with the bureau’s proposed rapid return-to-work program. Our review of the current
manuals indicated that they do not provide guidance on a comprehensive return-to-work program
or on each person’s role and responsibility for effectively carrying out the program, including
viable alternatives for returning employees back to work and the importance of early
documentation of third-party liability. Furthermore, we found the bureau did not provide
adequate training to field level supervisors about administering the workers’ compensation
program and the importance of containing FECA costs.



Census Headquarters and Regional Staff Have Not Developed or Implemented a Workers’
Compensation Return-to-Work Strategy for the 2008 Dress Rehearsal or 2010 Decennial
Operations. Another recommendation in our March 2006 report was for Census to develop a
return-to-work strategy for the decennial and lead-up operations. In its action plan, Census
reported that by October 2006 the safety office and the field and decennial staff would meet to
develop a comprehensive return-to-work strategy. Fifteen months after issuing our March 2006
report, and eight months after the target implementation date provided in Census’s action plan,
we found little evidence that a strategy exists. The Census safety office reported that it has



                                              9
U.S. Department of Commerce                                                 Final Report IPE-18592
Office of Inspector General                                                         September 2007

prepared a preliminary strategic plan to address our recommendation, but at the time of our
review, the plan was still in development and subject to change. Staff in the Decennial
Management Division, the Census division partly responsible for implementing any such policies
for decennial operations, told us they had not implemented our March 2006 recommendations
and that decennial managers had not met with Census’s human resources division to discuss the
decennial management’s role in workers’ compensation. Regional and field office staff also
confirmed that Census headquarters has failed to implement any new workers’ compensation
programs to address our recommendation. Since dress rehearsal operations began in April 2007
and continue through August 2008, it is critical that Census develop a proactive plan for
reemploying claimants as it hires thousands of temporary employees leading up to the 2010
decennial.

In its response to our draft report, Census also noted that 4 of 5 FECA claimants injured during
the 2007 dress rehearsal operations have returned to work. According to Census, the claimant in
the remaining case did not request continuation of pay and has been approved for medical
benefits only.



Census’s and the Commerce Chief Financial Officer and Assistant Secretary for
Administration’s Responses to OIG Draft Report and OIG Comments

Census disagreed with our finding that headquarters and regional staff have not developed or
implemented a workers’ compensation return-to-work strategy for the decennial. Specifically,
the bureau reported that its human resources division and field operations division have agreed
on an integrated approach to a more robust return-to-work strategy that includes increased
headquarters oversight and management. We have not been provided details on an approved
strategy. The bureau’s response also indicates that it still is engaged in a dialogue with the
Department’s OHRM to finalize that approach. We look forward to receiving additional
information on the bureau’s regionally based return-to-work strategy in its action plan.

The CFO’s response indicated that the Department’s OHRM is working closely with Census on
procedural and operational aspects of is workers’ compensation program, which includes further
defining roles and responsibilities and improving methods for returning employees to work
where medically feasible. His response also stated that OHRM is assisting senior-level managers
in the Census Bureau to identify the internal and external resources that will be needed to
effectively respond to the caseload of injuries expected during the 2008 dress rehearsal and 2010
decennial. According to the CFO’s response, the Department plans to issue a performance-based
contract for the management of its short- and long-term workers’ compensation claims. The new
contract services will increase focus and attention on the need to better handle new decennial
cases as well as those from previous censuses. In addition, the CFO’s response stated that the
Department’s OHRM has established a Department-wide workers’ compensation working group
to coordinate efforts in returning employees to work. The working group, which includes the
Census Bureau, held two meetings in July and August and will reconvene October 3, 2007. The
October meeting will include training for bureau personnel on returning injured employees to
work.



                                              10
U.S. Department of Commerce                                                    Final Report IPE-18592
Office of Inspector General                                                            September 2007

Census and the Department Have Begun Identifying Claimants From the 1990 and 2000
Decennial Operations Who Could Be Offered Jobs For the 2010 Decennial and Preceding
Operations. In response to our March 2006 recommendations, Census reported in its August
2006 action plan that it would identify current FECA claimants (those injured in the 1990 and
2000 or subsequent decennial operations) who could return to work in 2010 decennial operations
or the preceding activities. However, at the time of our review, Census had not yet taken the
necessary steps to identify claimants who might be located in areas where they could be offered
dress rehearsal or other 2010 decennial-related jobs. Census management reported that it took
the bureau time to get OWCP’s list of claimants although it did receive access to OWCP’s data
system as well as the Department’s case files. However, we found that the bureau’s coordination
in reviewing these files with OHRM only began in earnest in Spring 2007. Census’s human
resources division told us in September 2007 that it had hired a part-time, experienced human
resources specialist in June 2007, to work exclusively on re-employment of current decennial
claimants, and it recently hired one full-time employee (on board as of September 17, 2007) who
will also review Census workers’ compensation claimant case files and identify those who could
possibly return to work during the remaining dress rehearsal operations or other 2010 operations.
As of June 22, 2007, OHRM had already identified six decennial Census claimants as viable
return-to-work candidates and passed on the list to Census’s human resources division.
However, we note that at that time, OHRM had only reviewed case files from the national capital
region and these six claimants are not located near the dress rehearsal sites.

Our analysis of all Census 1990 and 2000 decennial claimants and their corresponding DOL
district office location did not identify anyone located in the Stockton area (covered by DOL’s
San Francisco, California district office); however we did find several persons whose claims are
managed by DOL’s Jacksonville, Florida district office and may be located in the area covering
the Fayetteville operations. In response to our draft report, the bureau noted that its review of zip
codes for Census’s 1990 and 2000 decennial claimants indicated that no current claimants were
located in the immediate Fayetteville area and as a result could not be re-employed for the dress
rehearsal operations.

In response to our draft report, the bureau reported that it has obtained access to data systems that
provide the bureau with the necessary information to review case files and determine which
claimants might be viable return-to-work candidates. To date, the bureau reported that it has
issued letters to 73 periodic roll recipients from the 1990 and 2000 decennial censuses to request
information necessary to formulate job offers for 2010 decennial operations.

The bureau’s August 2006 action plan also indicated that Census planned to request flexibility
from the Office of Personnel Management to address current hiring limitations caused by the
temporary nature of its workforce and limited work options. Most decennial employees work in
local Census offices that are only open during the decennial, dress rehearsal, or other decennial
test operations. In addition, most temporary Census appointments last less than 90 days, while
DOL regulations mandate a 90-day minimum job offer to FECA claimants returning to work.
According to its response to our draft report, Census has now developed an alternative to bring
claimants back to work. In addition, the bureau is looking at other ways to rehire claimants,
including OWCP’s vocational rehabilitation program. This program can help provide suitable
temporary employment, but it is expensive because Census would have to pay the Labor



                                                11
U.S. Department of Commerce                                                    Final Report IPE-18592
Office of Inspector General                                                            September 2007

Department for training or additional education provided to Census’s FECA claimants to enable
them to gain the necessary skills to work in a new position outside of Census or the federal
government.

It is important that the bureau continue to work with OHRM and OWCP to identify those
claimants who are ready to return to work and find them suitable employment as soon as
possible, including in the dress rehearsal, other Census or Department positions, or the 2010
decennial operations. FECA benefits for current 1990 and 2000 decennial claimants now cost
the bureau approximately $217,646 per month. Identifying and offering suitable jobs to
claimants who are eligible to return to work can offer significant cost savings for the bureau and
its 2010 decennial operations.



Census’s and the Commerce Chief Financial Officer and Assistant Secretary for
Administration’s Responses to OIG Draft Report and OIG Comments

The Census Bureau concurred with our third and fourth recommendations related to identifying
current FECA claimants who could be offered jobs in the 2010 census and evaluating and
adopting appropriate hiring flexibilities, as necessary, to enhance its ability to rehire decennial
claimants. The bureau stated that it continues to discuss future plans with the field division and
decennial management to identify positions that could be filled by return-to-work candidates.

In its response, the bureau also indicated that its human resources division has developed an
alternate, more expeditious plan of action and implemented procedures to enable the bureau to
rehire FECA claimants within existing appointing authorities. Specifically, the bureau indicated
that it intends to implement a plan to offer employment to current periodic roll claimants from
previous censuses as well as to Census 2010 claimants who cannot be rehired during current
operations or whose cases cannot be resolved through its “decennial rapid return-to-work
program.” On September 20, 2007, we were provided a draft copy of the bureau’s preliminary
return-to-work initiative for long-term periodic roll claimants. We acknowledge the bureau’s
efforts to establish a return-to-work strategy, and we encourage it to work with the Department’s
OHRM and DOL to further develop that strategy and get DOL’s approval of its return-to-work
strategy and overall implementation plan. We look forward to receiving more specific
information on this in the bureau’s action plan, including how Census will make job offers that
meet Labor’s FECA requirements.

The CFO’s response stated that OHRM is facilitating arrangements to send departmental
workers’ compensation case files from the regional offices of DOL’s Office of Workers’
Compensation Programs to Commerce headquarters. He stated that this will eliminate the need
to travel to DOL’s regional offices and enable the Department and Census to more easily obtain
the medical information needed to identify and process potential return-to-work cases.




                                                12
U.S. Department of Commerce                                                 Final Report IPE-18592
Office of Inspector General                                                         September 2007

Recommendations:

To follow up on our current review and our 2006 report, we recommend that the Director of
the Census Bureau work with the Department’s Office of Human Resources Management,
and Labor’s Office of Workers’ Compensation Programs, as appropriate, to ensure that the
following actions are taken to strengthen management of the Census workers’ compensation
program and help reduce the costs of the 2008 dress rehearsal and the 2010 Census:
   1. Develop and implement a comprehensive Census 2010 workers’ compensation
      management initiative, incorporate the initiative into dress rehearsal and 2010 decennial
      training and administrative manuals, and ensure all relevant headquarters, regional, and
      field staff are trained on the initiative. The guidance and training should specify
      supervisors’ and employees’ roles and responsibilities for preventing and handling new
      FECA claims, including identification of third party liability.

   2. Ensure that the bureau’s human resources, decennial management, field operations, and
      administrative staff work together to develop and implement a comprehensive return-to-
      work strategy for injured 2010 decennial employees, as well as current claimants on
      Census’s FECA rolls, and incorporate the strategy into the 2008 dress rehearsal and
      decennial training and administrative manuals. The strategy should include:
         a. A plan of action and implementation procedures to enable the bureau to rehire
             FECA claimants within current appointing authorities.
         b. A timetable, responsibilities, and step-by-step procedures for headquarters,
             regional and field offices, managers, line-office supervisors, and employees to
             follow for returning injured employees to work;
         c. Identification of specific positions suitable for return-to-work claimants based on
             physical limitations, including information on how to identify alternative jobs.

   3. Identify current FECA claimants who could be offered jobs in the 2010 census or the
      preparatory operations and work with the Department of Labor and Commerce’s Office
      of Human Resources Management to return them to work as soon as possible. If suitable
      job offers are not accepted, work with the Department and Labor to remove them from
      FECA rolls.

   4. Evaluate and adopt appropriate alternative hiring flexibilities to enhance Census’s ability
      to rehire decennial FECA claimants or expedite their employment by other government
      agencies or private employers.

To follow up on our current review and OIG’s 2006 report, we recommend that the
Department’s Chief Financial Officer and Assistant Secretary for Administration:
   1. Work with the Director of the Census Bureau to ensure that immediate actions are taken
      to help reduce the costs of the 2008 dress rehearsal and 2010 Census by strengthening
      Census’s management of its workers’ compensation program.


                                             *****



                                              13
U.S. Department of Commerce                                                 Final Report IPE-18592
Office of Inspector General                                                         September 2007

Please provide us with an updated action plan within 60 days that outlines the actions you have
taken or plan to take to address our recommendations. We thank you and other Census and
OHRM personnel for their assistance and for the courtesies extended to us during our review. If
you or your staff has any questions or comments about our report, please contact me on (202)
482-4661, or Jill Gross, Assistant Inspector General for Inspections and Program Evaluations, at
(202) 482-2754.


Cc:    Teresa Angueira
       Theodore A. Johnson
       Marilia A. Matos
       Tyra Dent Smith
       Deborah Jefferson




                                              14
  s. Department of Commerce                                                                                    Final Report IPE- 18592
Office of Insoector General                                                                                            Seotember 2007

                           The Census Bureau s Response to DIG Draft Report


                                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                                          Economics and Statistics Administration
                                                                             S. Census     Bureau

                                                      \t1i                Washington . DC 20233- 0001
                                                                          OFFICE OF THE DIRECTOR




           Stef :I.:t
                        DTf




           MEMORANDUM FOR                      Jill Gross
                                               Assistant Inspector General for Inspections and
                                                  Program Evaluations

           From:                               Theodore A. Johnson                               II).
                                                                                                        k---
                                                                   Lif~,
                                               Audit Resolution Officer

           Subject:                            Draft fuspection Report:       Preparingfor Census 2010: Follow-up
                                               Review of the Workers ' Compensation Program at the Census
                                               Bureau Reveals Limited Efforts to Address Previous GIG
                                               Recommendations (IPE- 18592)


           The attached contains the U. S. Census Bureau s response to the above-referenced draft audit
           report. Thank you for the opportunity to review and comment on this document prior to
           publication.

           Attachment




           USCENSUSBUREAU
                                    D"'s'ons
           H.t.tn. You MQko Inforn..'                                                                    www. census. goY
u.s. Department of Commerce                                                                       Final Report IPE-18592
Office o Ins ector General                                                                                Seotember 2007




                                 Preparing for Census 2010: Follow-up Review
                                  of the Workers ' Compensation Program at
                                 the Census Bureau Reveals Limited Efforts
                                to Address Previous DIG Recommendations
                                    Report No IPE- 18592, July 2007


         General Comments:

         Since our initial response to the Office of the fuspector General (OIG' s) March 2006
         recommendations, the U. S. Census Bureau has reached internal agreement on a Return to Work
         (RTW) strategy to manage the 2008 Dress Rehearsal and Census 2010 workers ' compensation
         cases; developed a strategy for rehiring Federal Employees Compensation Act (FECA) periodic
         roll claimants within existing appointing authorities; and updated decennial training, manuals
         and handbooks to reflect the workers ' compensation duties assigned to the regional and local
         census offices during the current dress rehearsal operations. We have also obtained access to
         data systems that provide us with the requisite information to evaluate workers compensation
         cases and make informed RTW decisions during dress rehearsal and decennial operations. We
         are working collaboratively with the U. S. Department of Commerce (DOC) to identify resources
         and contract vehicle options , and define roles and responsibilities. More recently, as an initial
         action toward full implementation of the RTW strategy, we issued letters to 73 periodic roll
         recipients from the 1990 and 2000 decennial censuses to request information necessary to
         formulate job offers.

         Specific comments:

         Page 5;   Census Has Not Developed Adequate Workers ' Compensation Training or Included
         Adequate Guidance in the. Training Manuals to Be Used for the Dress Rehearsal and the
         Decennial.

         We disagree with OIG' s assessment. Due to the temporary nature of the decennial census and its
         unpredictable workflows and heavy turnover among first- and second-level supervisors , most
         duties, such as determining modification of duties for suitable RTW employment , are not
         currently assigned to the staff of the two local census offices , but rather are retained in the
         regional and headquarters offices. The DX 520 Chapter 10, "Safety, Accidents and fujuries
         (dated October 2006) of the Field/decennial Administrative Manual provides detailed
         instructions for the Regional Census Center (RCC) Administrative Specialist to provide prompt
         notification of work-related injury to the headquarters Decennial Applicant, Personnel and
         Payroll System (DAPPS), and Safety offices.. This model provides headquarters staff an
         opportunity to develop the expertise necessary to guide and direct the planned regionally-based
         RTWprogram during the 2010 Census.

         To date, headquarters has received seven reports of2007 Dress Rehearsal injuries, five of which
         have resulted in Office of Workers ' Compensation Programs (OWCP) claims. Of these five, all
         but one has returned to work. The claimant in the remaining case did not request continuation of
         pay and has been approved for medical benefits only. .
                                                    ...




  s. Department of Commerce                                                                             Final Report IPE- 18592
Office o Ins ector General                                                                                      Seotember 2007




          Page   8:    Census Headquarters and Regional Staff Have Not Developed or Implemented a
           Workers ' Compensation Return- to- Work        Strategy for the   2008 Dress Rehearsal or 2010
          Decennial Operations.

          We disagree with OIG' s assessment. Census Human Resources Division (HRD) and Field
          Division (FLD) managers have agreed on an integrated approach to a more robust RTW strategy
          for the 2008 Dress Rehearsal and 2010 Decennial Census that includes increased headquarters
          oversight and management. fu addition, the DX- 520 " RCC Administrative Manual" , issued in
          October 2006, specifically assigns the RCC Administrative Specialist responsibility for
          collecting information on new workers ' compensation claims and forwarding that information to
          the DAPPS and Safety offices at headquarters for further action. Census and the Department of
          Commerce, Office of Human Resources Management (OHRM) are engaged in continued
          dialogue to finalize specific procedural and operational components of the approach; further
          define roles and responsibilities; and make determinations on a DOC-wide or bureau-specific
          contract vehicle that would best serve the Agency. To that end, Census has already developed
          and begun implementing a plan for re-employing periodic roll recipients whose cases cannot be
          resolved through our decennial rapid return-to-work program.

          Page   8:   Census has not offered dress rehearsaljobs...

          We agree with this statement and offer the following clarifying information. The Census Bureau
          analyzed employment potential for (FECA) recipients in the current Stockton and Fayetteville
          dress rehearsals. After reviewing the U. S. Department of Labor (DOL) data for (1990 and 2000)
          decennial FECA recipients, we found that none of the claimants rated by DOL as having return-
          to-work potential resided within the Zip Codes required for employment in either dress rehearsal
          operation.

         Page    8:   Census management reported           that coordination with OHRM only began in earnest
          in March 2007.

         We respectfully disagree with this statement. We have been working cooperatively with the
         DOC since May 2006 on this initiative. Census obtained access to the DOL Agency Query
         System and DOC' s workers compensation contractor s system which provides requisite
         information to determine and evaluate RTW potential, and requested complete chargeback
         information for Census Bureau cases , including case coding and identification of disbursements
         as medical, periodic roll, or scheduled awards. We have continued coordination and dialogue
         with the DOC on solutions and strategies to ensure that an effective action plan can be developed
         and implemented as soon as possible.
         Page    8:   Census ' HRD plans to hire one employee to the Workers Comp program...

         We agree with this statement and offer the following clarifying information. fu June 2007 , the
         Census Bureau s Human Resources Division (HRD) brought on board a part-time, experienced
         HRD specialist who works exclusively on re-employment of current decennial OWCP claimants
         to ensure continuity of the program while we engage in recruitment efforts for the full-time
u.s. Department of Commerce                                                                           Final Report IPE- 18592
 ffice o    ector General                                                                                     Seotember 2007




         specialist. A certificate of eligibles has been issued for the full- time specialist, interviews are
         being conducted, and we anticipate an appointment by mid- September.

         Page   9:   Census plan to request flexibility from the Office of Personnel Management

         We agree with this statement and offer the following clarifying information. The Census
         Bureau, HRD, has developed an alternate, more expeditious plan of action and implemented
         procedures to enable the Census Bureau to rehire FECA claimants within existing appointing
         authorities. This plan provides a means to offer employment to current periodic-roll claimants
         from previous decennial censuses, as well as to Census 2010 claimants who cannot be rehired
         during current operations.

         Responses to specific recommendations:

         Page   9:   Recommendation

         We agree with this recommendation. The Census Bureau, HRD and FLD have reached internal
         agreement on an integrated approach for a more robust workers compensation program strategy,
         Current dress rehearsal training and administrative manuals reflect the procedures currently in
         use, and development and implementation of future decennial training and administrative
         manuals will be completed in advance of Census 2010 operations, once the RTW plan is
         finalized. We continue to work with OHRM on finalizing the specific approach and determining
         the proper resource allocations/contract vehicle options to best meet the needs of the program.


         Page 9- 10:   Recommendation

         We agree with this recommendation. As noted above, we continue to collaborate with the DOC
         on the overall strategy and implementation plan for the rapid return-to-work initiative.
         The Census Bureau has developed a RTW strategy to address persons remaining on the periodic
         rolls from previous decennials as well as those injured in the 2010 Census.

         Page 10: Recommendation



         We agree with this recommendation. While there have been no current FECA claimants eligible
         to work in dress rehearsal activities so far this year, we believe the re-employment initiative we
         have begun implementing will provide opportunities to significantly reduce the numbers on
         those rolls.
u.s. Department of Commerce                                                                  Final Report IPE- 18592
 ffice o     ector General                                                                           Seotember 2007




         Page 10: Recommendation


         We agree with this recommendation. The Census Bureau has identified and adopted flexibilities
         which authorize us to make re-employment offers to disabled former employees who remain on
         the OWCP periodic roll.
                                               ; .    ......                       ,"



u.s. Department of Commerce                                                                        Final Report IPE- 18592
Office of Insoector General                                                                                   tember 2007

    The Commerce Chief Financial Officer and Assistant Secretary for Administration
                           Response to OIG Draft Report


                                                                    UNITED STATES DEPARTMENT OF COMMERCE

                                                       i'"     df
                                                                    Chief financial Officer
                                                                    Assistant Secretary for Administration
                                                                    Washington, D. C.   20230


                                                                          SEP 2 6 2007


           MEMORANDUM FOR Jill Gross
                          Assistant fuspector General for Inspections and
                               Program Evaluations

          FROM:                     Otto J. Wolff
                                    Chief Financial Office
                                        Assistant Secretary for A

          SUBJECT;                  Draft Inspection Report Num r IPE- 18592 Preparing for
                                    Census 2010; Follow-up Revi w of the Workers
                                    Compensation Program at the Census Bureau Reveals
                                    Limited Efforts to Address Previous OIG Recommendations

          Thank you for the opportunity to review the subject draft inspection report, which recommends that
          my organization work with the Census Bureau to ensure that immediate actions are taken to help
          reduce costs related to the decennial census by strengthening Census Bureau management of its
          workers ' compensation program. The Office of Human Resources Management' s (OHRM'
          Office of Occupational Safety and Health (OOSH) exercises oversight for the Department'
          workers ' compensation program and is continuing to coordinate with the Census Bureau on
          enhancing efforts in this area:

             . OHRM is assisting senior managers in the Census Bureau in identifying the internal and
                external resources that will be needed to effectively respond to the caseload of on-the-job
                injuries expected to result from the dress rehearsal in 2008 and the decennial census in 2010.
                The Department is preparing a request for proposals (RFP) for the management of its short-
                and long-tenn injury cases, including decennial-related irljuries. Issuance of a perfonnance-
                based contract for these services will increase focus and attention on the need to better
                handle new cases as well as residual cases from the 1990 and 2000 decennial censuses.

             . OHRM is working closely with Census on procedural and operational aspects of its workers
                compensation program, which include further defining roles and responsibilities and
                improving methods for returning employees to work where medically feasible. For
                example, OHRM has aided Census in obtaining access to the Department of Labor
                (DOL' s) Agency Query System, quarterly chargeback reports, and the current vendor
                tracking system. Having access to these resources has better positioned Census managers to
                identify potential retum-to-work (RTW) cases.

             . OHRM is facilitating arrangements for delivery of Commerce case files , which are
                maintained by DOL' s Office of Workers ' Compensation Programs at the regional level , to
                Washington, DC for local review~ Eliminating the need to travel to regional offices will
u.s. Department of Commerce                                                                        Final Report IPE-18592
Office of Insoector General                                                                                   tember 2007




                    enable Commerce and Census to more easily obtain the medical information needed to
                    identify and process potential RTW cases.

                   Additionally, OHRM has established a Department-wide workers ' compensation working
                   group to coordinate efforts in returning employees to work. The working group, which
                   includes the Census Bureau, held two very productive meetings in July and August. The
                   next meeting is scheduled for October 3 and. will include training for bureau personnel on
                   returning injured employees to work.

            We believe that these actions will significantly contribute to managing and containing the costs of
            the workers ' compensation program for the Census Bureau as well as the overall Department.
            Please feel free to direct any questions that you may have to either Deborah Jefferson, Director for
            Human Resources Management, at 482-4807 or Nancy McWilliams, Director
                                                                                          , OOSH , at 482-0211.
